HEARING BEFORE THE U.S. HOUSE OF REPRESENTATIVES

          COMMITTEE ON WAYS AND MEANS

            SUBCOMMITTEE ON OVERSIGHT

        SUBCOMMITTEE ON SOCIAL SECURITY




                     March 10, 2004

                    Washington, DC


                   Pamela J. Gardiner
                Acting Inspector General
    Treasury Inspector General for Tax Administration
   Testimony of Pamela J. Gardiner, Acting Inspector General for Tax Administration

        Before the U.S. House of Representatives Committee on Ways and Means

                               Subcommittee on Oversight

                            Subcommittee on Social Security

                                      March 10, 2004



Chairman Houghton, Chairman Shaw, Ranking Member Pomeroy, Ranking Member

Matsui, and distinguished Members of the subcommittees, I appreciate the opportunity

to appear before you today to discuss issues related to individuals who file tax returns

using an Individual Taxpayer Identification Number (ITIN), and its impact on tax

administration.



The vast majority of individual tax returns are filed using a Social Security Number

(SSN) as identification. However, there are instances where alien individuals have a

need to file a U.S. tax return. For example, a professional golfer who is a citizen of

another country but tours in the U.S. would need to report taxes on tournament

winnings. To enable these individuals to file, Treasury Regulations were issued in 1996

to provide them with ITINs. An ITIN is intended for tax purposes only and creates no

inference regarding an alien individual’s right to live in the U.S. or be legally employed

here.



The number of ITINs issued in the last few years has increased dramatically, climbing

from 1.1 million in 2001 to 1.5 million in 2002--a one-year increase of about 36 percent.

Normally, ITINs would be used to file a Form 1040NR—U.S. Nonresident Alien Income

                                                                                             2
Tax Return. However, many ITINs are used to file Forms 1040, which creates

challenges for tax administration. Our analysis of Forms 1040 filed in Tax Year 2001

with ITINs found that approximately 530,000 Forms 1040 were filed with ITINs as the

primary number by aliens who resided in the U.S., but who were not authorized to work

and, in general, to reside in the U.S.

   •   These returns reported adjusted gross income of $10.7 billion. After tax

       deductions and credits, these tax returns reported a total liability of $184 million.

   •   Over half of the tax returns reported no tax liability, and $522 million in tax

       refunds were claimed on these returns.



Tax returns filed with ITINs present two significant challenges for IRS’ administration of

the tax system. First, resident aliens filing tax returns with ITINs do so because they

typically are not eligible for a valid SSN for employment purposes. As a result, the tax

returns filed by these individuals and the corresponding Forms W-2 often have two

different identification numbers. We estimate that 309,000 Tax Year 2000 Forms 1040

filed with ITINs included W-2s with SSNs that did not belong to the individuals who filed

the tax returns. Instead, many of the SSNs were assigned to other individuals. Second,

individuals filing returns with ITINs often fail to fully report income from wages and

nonemployee compensation. For Tax Year 2000, we estimate that one in four

individuals filing with an ITIN failed to report on their tax returns wages and

nonemployee compensation totaling $324 million. However, the mismatches between

the ITINs and the SSNs limit the IRS’ ability to identify this underreporting.




                                                                                               3
Beyond the tax administration challenges, other Government agencies are affected by

ITIN usage because the tax law generally prohibits the disclosure of tax information to

other Federal Government agencies. For example, immigration law1 contemplates an

unrestricted exchange of information regarding immigration status between Immigration

and Customs Enforcement and other Government entities and officials. However, there

is no current exception within the Internal Revenue Code that would permit this. In

addition, identity theft is the fastest growing financial crime in the country. The Social

Security Administration has expressed ongoing concerns about the significant problems

caused by the misuse and sometimes fraudulent use of the SSN. As I indicated earlier,

tax returns with ITINs have often included W-2s with SSNs assigned to other

individuals.



In December 2003, the IRS announced that it was taking a number of steps to enhance

the ITIN program, including the following:

      •   An applicant is now required to show a federal tax purpose for obtaining an ITIN,

          and typically must attach a completed tax return to the ITIN application.

      •   The number of acceptable documents to establish proof of identity to obtain an

          ITIN has been reduced from 40 to 13.

      •   The appearance of the ITIN has been changed from a card to a letter.



This ITIN initiative is a laudable effort and may reduce the number of ITINs issued for

non-tax purposes; however, it does not address the issues resulting from individuals

with ITINs and their employers using erroneous or improper SSNs for wage reporting. It


1
    8 U.S.C. 1373 (2003).
                                                                                             4
is also unlikely that it will deter an individual with criminal intent, and it might be an

impediment to those who seek to voluntarily comply with the tax laws. We will monitor

the impact these initiatives have on the integrity of the ITIN program.



I would like to close by responding to press reports suggesting that TIGTA has compiled

a list of people whom we suspect are illegal aliens and that we intended to prosecute

them. I can assure you that this is completely false. We do not have any such list,

initiative, or program designed to identify persons who are not authorized to work in the

United States.



I would be happy to answer any question you may have at this time.



TIGTA’s audit report on ITINs is available at:

http://www.treas.gov/tigta/auditreports/2004reports/200430023fr-redacted.pdf




                                                                                             5
